Department of Health and Human Services 

                   OFFICE OF 

              INSPECTOR GENERAL 

                  I




      MEDICARE COMPLIANCE
    REVIEW OF GOOD SAMARITAN
      MEDICAL CENTER FOR
        CALENDAR YEARS
          2010 AND 2011


  Inquiries about this report may be addressed to the Office ofPublic Affairs at
                           Public.Atfairs@oig. hhs.gov.




                                                     David Lamir 

                                               Regional Inspector General 


                                                      February 2014 

                                                      A-01-13-00501 

                        Office ofInspector General
                                         https:/ / oig.hhs.gov



The mission of the Office oflnspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs . This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs . To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office oflnvestigations (OI) conducts criminal , civil, and administrative investigations of fraud and
misconduct related to HHS programs , operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal , State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties .

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG 's internal
operations . OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs , including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions , issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities .
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig. hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FI.NDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS ·operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY 


Good Samaritan Medical Center did not fully comply with Medicare requirements for billing
inpatient and outpatient services, resulting in net overpayments of approximately $840,000
over 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 4 3 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Good Samaritan Medical Center (Good
Samaritan) complied with Medicare requirements for billing inpatient and outpatient services on
selected claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary ' s stay is assigned and the severity level of the patient' s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary's stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

Good Samaritan, which is part of the Steward Health Care System, is a 245-bed acute care
hospital located in Brockton, Massachusetts. Medicare paid Good Samaritan approximately
$123 million for 12,592 inpatient and 60,674 outpatient claims for services provided to
beneficiaries during CY s 201 0 and 2011 based on CMS ' s National Claims History data.

Our audit covered $2, 178 ,804 in Medicare payments to Good Samaritan for 262 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 225 inpatient and
37 outpatient claims.

WHAT WE FOUND

Good Samaritan complied with Medicare billing requirements for 50 of the 262 inpatient and
outpatient claims we reviewed. However, Good Samaritan did not fully comply with Medicare
billing requirements for the remaining 212 claims, resulting in net overpayments of $840 ,067 for
CYs 2010 and 2011. Specifically, 183 inpatient claims had billing errors, resulting in net
overpayments of$757,453 , and 29 outpatient claims had billing errors, resulting in
overpayments of$82,614. These errors occurred primarily because Good Samaritan did not



Medicare Compliance Review ofGood Samaritan Medical Center (A -01-1 3-00501)
have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors.

WHAT WE RECOMMEND .

We recommend that Good Samaritan:

   • 	 refund to the Medicare contractor $840,067, consisting of $757,453 in net overpayments
       for 183 incorrectly billed inpatient claims and $82,614 in overpayments for 29 incorrectly
       billed outpatient claims, and

   • 	 strengthen controls to ensure full compliance with Medicare requirements.

GOOD SAMARITAN MEDICAL CENTER COMMENTS AND OUR RESPONSE

In written comments on our draft report, Good Samaritan concurred with most of our findings
and recommendations. However, Good Samaritan disagreed that it incorrectly billed 11 claims
as inpatient and stated that it would appeal these claims. We maintain that these claims did not
comply with Medicare billing requirements.

Good Samaritan also stated that it has developed corrective action plans to address the identified
errors. We acknowledge Good Samaritan' s efforts to implement stronger controls.




Medicare Compliance Review ofGood Samaritan Medical Center (A-01-1 3-00501)                      ii
                                                           TABLE OF CONTENTS 


INTRODUCTION ..... ... ........ ......... ... ....... ..... ....... ... ..... ......... .. .. ........ .. .. ..... ........... .... .. ...... ...... ... .. .. 1 


        WHY WE DID THIS REVIEW ... .. .... .... ... ... .... ......... .. .... .. ........ .... .. ... ....... ..... ........ ..... ... ....... 1 


        OBJECTIVE ..... .... ....... ... ... ...... ......... ......... ... ... ........ ................. ....... ........ .... ...... .. ... ... ..... .. ..... 1 


        BACKGROUND ........ ........ .. ....... .. .. ..... .... ... .. ..... .... ... ..... .... .............. ... .. ...... ...... ... .......... ....... 1 

           The Medicare Program .............. ... ... ....... .. ... ..... ............... .... ... ...... ....... ................ .... .... .. 1 

           Hospital Inpatient Prospective Payment System ..... ....... .. .... .... ..... .......... ..... .. ... ....... ..... 1 

           Hospital Outpatient Prospective Payment System ... ... ...... ..... .. ..... ...... ... ......... .... .......... 1 

           Hospital Claims at Risk for Incorrect Billing ... ... ..... .... .... .... .. .. ........ ..... ...... ...... .... ..... ... 2 

           Medicare Requirements for Hospital Claims and Payments ........... .......... ....... ... ....... ... 2 

           Good Samaritan Medical Center ... ...... .... ... .... .... .... ......... ........ .. ..... .. ... .. ..... ........ .. ... .. ... .3 


        HOW WE CONDUCTED THIS REVIEW ......... ................ ..... ... .... ........ .. ... .. ....... .. .... .......... 3 


FINDINGS ............ ......... ..... .................. ... .. ............ ...... ......... ....... .................... ..... ...... .... .... ...... .. ...3 


        BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS .. ..... ...... ....... .. ........ .. .... 3 

            Incorrectly Billed as Inpatient ...... .... ......... ......... .. ....... ..... ................... ... ....... ....... ...... ...4 

            Incorrectly Billed as Separate Inpatient Stays .... .... .... ...... .. ... .. ....... ..... .............. ... ..... ....4 

            Incorrect Discharge Status ............ ......................... .... .. ..... .. ... ....... ........... ... ... ........ ... .... 4 

            Incorrectly Billed Diagnosis-Related Group Codes .... ................. ..... ,......... ... ... .. ... .. ..... S 

            Incorrect Source-of-Admission Code .... ..... ...... ............ .................... .. ....... .............. .... .5 


        BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ......... .. ..... ... .. ... ... ..... S 

            Incorrect Billing for Dental Services ... ....... .... ..... ..... .......... .. .................. .. .......... .. .. .... .. 6 

            Manufacturer Credit for a Replaced Medical Device Not Reported ............... ......... .. ... 6 

            Incorrectly Billed Outpatient Services Provided During an Inpatient Stay .... .... .......... 6 

            Incorrectly Billed Number of Units ......... ......... ... .... ..... ....... ......... .................. ....... ....... 7 

            Incorrectly Billed Outpatient Services With Modifier -59 ......... ..... ... ...... .... ................ 7 


RECOMMENDATIONS .. ...... .. .......... .... .... .. ... ......... .... ... .... .. .... ...... .... .... ........ ............. .......... .. ..... 7 


GOOD SAMARITAN MEDICAL CENTER COMMENTS AND OFFICE OF INSPECTOR 

   GENERAL RESPONSE .... ..... ...... ... .. ... ...... .... ..... .. .. ....... .. .. ..... .. ......... ...... ... ..... ... ... ... .. ... ... .... 7 


APPENDIXES

       A: Audit Scope and Methodology .. .. ........... .............. .......... ... .. .... ... ... ... ... .. ...... .... .. .. .... ....... .. 9 

       B: Results of Review by Risk Area .... .......... ............ ........ ... .. .... .. .................. .... .... ... .. .... ..... 11 

       C: Good Samaritan Medical Center Comments .............. ........ ........... ... .............. .......... ... ... 12 





Medicare Compliance Review ofGoodSamaritan Medical Center (A-0/-/3-00501)                                                                                      iii
                                          INTRODUCTION 


WHY WE DID THIS REVIEW 


This review is part of a series of hospital compliance reviews . Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that are at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012 , Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office oflnspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Good Samaritan Medical Center (Good Samaritan)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to , among other things , process and pay claims
submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary ' s stay is assigned and the severity level of the patient's diagnosis.
The DRG payment is , with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary ' s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) , which is effective for
services furnished on or after August 1, 2000 , for hospital outpatient services . Under the OPPS ,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC) . CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services




Medicare Compliance Review ofGoo d Samaritan Medical Center (A -01-13-00501)                     I
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient same-day discharges and readmissions ,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient transfers,

    •   inpatient psychiatric facility (IPF) emergency department adjustments ,

    •   inpatient claims paid in excess of charges, 


    •   outpatient dental services, 


    •   outpatient manufacturer credit for a replaced medical device, 


    •   outpatient claims billed during inpatient stays, 


    •   outpatient drugs, and 


    •   outpatient claims billed with modifier -59 . 


For the purposes of this report, we refer to these areas at risk for incorrect billing as "risk areas."
We reviewed these risk areas as pmi of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that " are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member" (the Social Security Act (the Act),§ 1862(a)(l)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider(§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR §
424.5(a)(6)).

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures , services,
products, and supplies.


Medicare Compliance Review ofGood Sam aritan Medical Center (A -OJ -13-0050 I)                                2
The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No. 100­
04, chapter 1, § 80.3.2.2) . The Manual states that providers must use HCPCS codes for most
outpatient services (chapter 23, § 20.3).

Good Samaritan Medical Center

Good Samaritan, which is part of the Steward Health Care System, is a 245-bed acute care
hospital located in Brockton, Massachusetts. Medicare paid Good Samaritan approximately
$123 million for 12,592 inpatient and 60,674 outpatient claims for services provided to
beneficiaries during CYs 2010 and 2011 based on CMS ' s National Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $2,178,804 in Medicare payments to Good Samaritan for 2~2 claims that we
judgmentally selected as potentially at risk for billing errors. These 262 claims consisted of 225
inpatient and 37 outpatient claims with dates of service in CY s 2010 or 2011. We focused our
review on the risk areas that we had identified as a result of previous OIG reviews at other
hospitals . We evaluated compliance with selected billing requirements and subjected 25 claims
to focused medical review to determine whether the services were medically necessary . This
report focuses on selected risk areas and does not represent an overall assessment of all claims
submitted by Good Samaritan for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our scope and methodology.

                                               FINDINGS

Good Samaritan complied with Medicare billing requirements for 50 of the 262 inpatient and
outpatient claims we reviewed. However, Good Samaritan did not fully comply with Medicare
billing requirements for the remaining 212 claims, resulting in net overpayments of $840 ,067 for
CY s 2010 and 2011. Specifically, 183 inpatient claims had billing errors, resulting in net
overpayments of $757,453, and 29 outpatient claims had billing errors, resulting in
overpayments of$82,614. These errors occurred primarily because Good Samaritan did not
have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors. For the results of our review by risk area, see Appendix B.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Good Samaritan incorrectly billed Medicare for 183 of225 selected inpatient claims, which
resulted in net overpayments of$757,453.



Medicare Compliance Review of Goo d Samaritan Medical Center (A -01-1 3-00501)                 3
Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that " are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member" (the Act,§ 1862(a)(l)(A)).

For 103 ofthe 225 selected claims, Good Samaritan incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient or outpatient with observation
services. Good Samaritan officials stated that the majority of these errors occurred because
Good Samaritan did not have enough staff to review all patients ' stays on a consistent and timely
basis and staff had inadequate education on level of care documentation. As a result of these
errors, Good Samaritan received overpayments of $563 ,904 ?

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:

         When a patient is discharged/transferred from an acute care Prospective Payment System
         (PPS) hospital, and is readmitted to the same acute care PPS hospital on the same day for
         symptoms related to, or for evaluation and management of, the prior stay ' s medical
         condition, hospitals shall adjust the original claim generated by the original stay by
         combining the original and subsequent stay onto a single claim.

For 25 of the 225 selected claims, Good Samaritan billed Medicare separately for related
discharges and readmissions within the same day. Good Samaritan officials stated that these
errors occurred primarily because there was no report to identify all inpatients readmitted within
24 hours; therefore, Good Samaritan did not review these cases. As a result of these errors ,
Good Samaritan received net overpayments of$165,399.

Incorrect Discharge Status

Hospitals must bill inpatient discharges as transfers when (1) the patient is readmitted the same
day to another hospital unless the readmission is unrelated to the initial discharge and (2) the
patient's discharge is assigned to one of the qualifying DRGs and the discharge is to home under
a home health agency ' s written plan of care for home health services that begin within 3 days
after the date of discharge (42 CFR §§ 412.4(b) and (c)) . A hospital that transfers an inpatient
under the above circumstances is generally paid a graduated per diem rate for each day of the
patient's stay in that hospital , not to exceed the full DRG payment that would have been paid if
the patient had been discharged to another setting (42 CFR § 412.4(£)) .



2
 Good Samaritan may be able to bill Medicare Pa rt B for all services (except for services that specificall y require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.



Medicare Complian ce Review ofGood S amaritan Me dical Center (A -0 1-13-0050 1)                                   4
For 5 of the 225 selected claims, Good Samaritan incorrectly billed Medicare for patient
discharges that should have been billed as transfers. For these claims, Good Samaritan should
have coded the discharge status either as a transfer to an acute-care hospital or to home under a
written plan of care for the provision of home health services. However, Good Samaritan
incorrectly coded the discharge status to "home" or "to another type of health care institution not
defined elsewhere." Thus, Good Samaritan received a full DRG payment rather than a per diem
payment for these claims. Good Samaritan officials stated that the errors occurred because
coding staff did not always validate the discharge status code that was entered by the Unit
Coordinator at the time of the patient's discharge. As a result of these errors, Good Samaritan
received net overpayments of$13 ,895.

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that " are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member" (the Act§ 1862(a)(l)(A)). In addition, the Manual states: "In order to be
processed correctly and promptly, a bill must be completed accurately" (chapter 1, § 80.3.2.2).

For 3 of the 225 selected claims, Good Samaritan billed Medicare for incorrect DRG codes.
Good Samaritan officials attributed this incorrect billing to human error. As a result of these
errors, Good Samaritan received overpayments of $8,824.

Incorrect Source-of-Admission Code

CMS adjusts the Federal per diem rate upward for the first day of a Medicare beneficiary ' s IPF
stay to account for the costs associated with maintaining a qualifying em~rgency department (42
CPR§ 412.424). The Manual states that CMS makes this additional payment regardless of
whether the beneficiary used emergency department services ; however, the IPF should not
receive the additional payment if the beneficiary was discharged from the acute care section of
the same hospital (chapter 3, § 190 .6.4) . The Manual also states that IPFs report source-of­
admission code "D" to identify patients who have been transferred to the IPF from the same
hospital (chapter 3, § 190 .6.4.1) . An IPF's proper use ofthis code is intended to alert the
Medicare contractor not to apply the emergency department adjustment.

For 47 of the 225 selected claims, Good Samaritan incorrectly coded the source-of-admission for
beneficiaries who were admitted to its IPF upon discharge from its acute care section. Good
Samaritan officials stated that these errors occurred because patient access staff was not full y
educated to select and enter the proper source-of-admission code. Additionally, coding staff did
not always validate the entered source-of-admission code. As a result of these errors, Good
Samaritan received overpayments of $5,431 .

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Good Samaritan incorrectly billed Medicare for 29 of 37 selected outpatient claims, which
resulted in overpayments of$82,614.




Medicare Compliance Review ofGood Samaritan Medical Ce nter (A -01-13-00501)                      5
Incorrect Billing for Dental Services

The Act states: "No payment may be made under Medicare Part A or Part B for any expenses
incurred for items or services where such expenses are for services in connection with the care,
treatment, filling, removal, or replacement of teeth or structures directly supporting teeth ... ."
(§ 1862(a)(12)).

For 8 of the 37 selected claims, Good Samaritan incorrectly billed Medicare for the treatment or
removal of teeth. Good Samaritan officials stated these errors occurred because the coding staff
was unaware that Medicare did not cover the dental services. As a result of these errors, Good
Samaritan received overpayments of $52,4 70.

Manufacturer Credit for a Replaced Medical Device Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished ort or after January 1, 2007, CMS requires the provider to
report the modifier "FB" and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device :3

For 1 of the 37 selected claims, Good Samaritan received full credit for a replaced device but did
not properly report the " FB" modifier and reduced charges on its claim. Good Samaritan
officials stated that this error occurred because it did not have procedures to identify device
replacements covered under wananty and because personnel were not sufficiently educated on
proper use of the "FB" modifier. As a result of this error, Good Samaritan received an
overpayment of $21,662.

Incorrectly Billed Outpatient Services Provided During an Inpatient Stay

Certain items and nonphysician services furnished to inpatients are covered under Part A and
consequently are covered by the inpatient prospective payment rate (the Manual, chapter 3,
§ 10.4) .

For 17 of the 37 selected claims, Good Samaritan incorrectly billed Medicare Part B for
outpatient services provided during an inpatient stay that should have been included on its
inpatient (Part A) bills to Medicare. Good Samaritan officials stated that these errors occurred
because its billing software was not programmed to identify all outpatient services provided
during inpatient stays. Additionally, officials attributed the overpayments to inadequate review
by hospital staff prior to billing and staff misunderstanding of the billing requirements . As a
result of these errors, Good Samaritan received overpayments of $3 ,601.

3
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal1103 , dated November 3, 2006, and the Manual , chapter 4, § 61 .3).


M edi care Compliance Revie w ofGo od Sam aritan Medical Cen ter (A -01-1 3-0050 1)                     6
Incorrectly Billed Number of Units

Medicare payments may not be made to any provider of services or other person without
information necessary to determine the amount due the provider (the Act,§ 1833(e)). The
Manual states: "In order to be processed correctly and promptly, a bill must be completed
accurately" (chapter 1, § 80 .3 .2.2) . In addition, the Manual states: "The definition of service
units ... is the number of times the service or procedure being reported was performed"
(chapter 4, § 20.4) .

For 1 of the 37 selected claims, Good Samaritan submitted a service to Medicare with an
incorrect number of units. Good Samaritan officials attributed this incorrect billing to human
error. As a result of this error, Good Samaritan received an overpayment of $2 ,796.

Incorrectly Billed Outpatient Services With Modifier -59

The Manual states: "In order to be processed correctly and promptly, a bill must be completed
accurately" (chapter 1, § 80.3 .2.2). It also states: "The ' 59' modifier is used to indicate a
distinct procedural service . . . . This may represent a different session or patient encounter,
different procedure or surgery, different site or organ system, separate incision/excision, or
separate injury (or area of injury in extensive injuries)" (chapter 23, § 20.9.1.1 ).

For 2 of the 37 selected claims, Good Samaritan incorrectly billed Medicare for HCPCS codes
with modifier -59 for services that were already included in the payments for other services
billed on the same claim. Good Samaritan officials stated that these errors occurred because
coding staff did not understand how to properly use the edits in the coding software and did not
correctly validate the use of the modifier. As a result of these errors, Good Samaritan received
overpayments of $2,085.

                                     RECOMMENDATIONS

We recommend that Good Samaritan:

    • 	 refund to the Medicare contractor $840,067, consisting of$757,453 in net overpayments
        for 183 incorrectly billed inpatient claims and $82 ,614 in overpayments for 29 incorrectly
        billed outpatient claims, and

    • 	 strengthen controls to ensure full compliance with Medicare requirements.

       GOOD SAMARITAN MEDICAL CENTER COMMENTS AND OFFICE OF 

                   INSPECTOR GENERAL RESPONSE 


In written comments on our draft report, Good Samaritan concurred with most of our findings
and recommendations. However, Good Samaritan disagreed that it incorrectly billed 11 claims
as inpatient and stated that it would appeal these claims. We maintain that these 11 claims did
not comply with Medicare billing requirements.




Medicare Compliance Review ofGood Samaritan Medical Center (A -01-13-00501)                          7
Good Samaritan also stated that it has developed corrective action plans to address the identified
errors. We acknowledge Good Samaritan's efforts to implement stronger controls. Good
Samaritan's comments are included in their entirety as Appendix C.




Medicare Compliance Review ofGood Samaritan Medical Center (A-01 - 13-00501)                   8
                  APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE 


Our audit covered $2,178,804 in Medicare payments to Good Samaritan for 262 claims that we
judgmentally selected as potentially at risk for billing errors . These 262 claims consisted of 225
inpatient and 37 outpatient claims with dates of service in CY s 201 0 or 2011.

We focused our review on the risk areas that we had identified as a result of prior Office of
Inspector General reviews at other hospitals. We evaluated compliance with selected billing
requirements and subjected 25 claims to focused medical review to determine whether the
services were medically necessary.

We limited our review of Good Samaritan's internal controls to those applicable to the inpatient
and outpatient areas of review because our objective did not require an understanding of all
internal controls over the submission and processing of claims. We established reasonable
assurance ofthe authenticity and accuracy of the data obtained from the National Claims History
file , but we did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by Good Samaritan for Medicare reimbursement.

Our fieldwork included contacting Good Samaritan in Brockton, Massachusetts , from January
through September 2013.

METHODOLOGY

To accomplish our objective, we:

    • 	 reviewed applicable Federal laws , regulations, and guidance;

    • 	 extracted Good Samaritan's inpatient and outpatient paid claim data from CMS ' s
        National Claims History file for CY s 2010 and 2011;

    • 	 obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for CY s 2010 and 2011;

    • 	 used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    • 	 judgmentally selected 262 claims (225 inpatient and 37 outpatient) for detailed review;

    • 	 reviewed available data from CMS ' s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;




Medicare Compliance Review ofGood Samaritan Medical Center (A -01-13-00501)                      9
    • 	 reviewed the itemized bills and medical record documentation provided by Good 

        Samaritan to support the selected claims ; 


    • 	 requested that Good Samaritan conduct its own review of the selected claims to 

        determine whether the services were billed correctly ; 


    • 	 reviewed Good Samaritan ' s procedures for submitting Medicare claims;

    • 	 used an independent medical review contractor to determine whether 25 selected claims
        met medical necessity requirements ;

    • 	 discussed the incorrectly billed claims with Good Samaritan' s personnelto determine the
        underlying causes of noncompliance with Medicare requirements ;

    • 	 calculated the correct payments for those claims requiring adjustments; and

    • 	 discussed the results of our review with Good Samaritan officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards . Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives . We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review ofGoo d S amaritan Me dical Center (A -01-13-00501)                10
                    APPENDIX B: RESULTS OF REVIEW BY RISK AREA 


                                                                                Claims With
                                                               Value of           Under/      Value of
                                                 Selected      Selected            Over­      Net Over­
                  Risk Area                      Claims        Claims            payments     payments
Inpatient

Short Stays                                         98           $550,151           87         $439,969

Same-Day Discharges and Readmissions                25            411,305           25           165,399
Claims Billed With High Severity Level
                                                    40            325,738           20           125,799
Diagnosis-Related Group Codes
Transfers                                            4              47,821           4           20,855
Psychiatric Facility Emergency Department
                                                    48            487,627           47              5,431
Adjustments
Claims Paid in Excess of Charges                    10            238,736            0                  0

 Inpatient Totals                                   225        $2,061,378           183        $757,453



Outpatient

Dental Services                                      8            $52,470            8           $52,470
Manufacturer Credit for a Replaced
                                                     1              24,525           1             21,662
Medical Device
Claims Billed During Inpatient Stays                 17              4,405          17              3,601

Drugs                                                1               6,023           1              2,796

Claims Billed With Modifier -59                      10             30,003           2              2,085

 Outpatient Totals                                  37           $117,426           29           $82,614



 Inpatient and Outpatient Totals                    262        $2,178,804           212        .$840,067


  Notice: The table above illustrates the results of our review by risk area. In it, we have
  organized inpatient and outpatient claims by the risk areas we reviewed. However, we have
  organized this report's findings by the types of billing errors we found at Good Samaritan.
  Because we have organized the information differently , the information in the individual risk
  areas in this table does not match precisely with this report's findings .




  Medicare Compliance Review ofGood Samaritan Medical Center (A -01-13-00501)                      11
           APPENDIX C: GOOD SAMARITAN MEDICAL CENTER COMMENTS




December 20, 2013

Mr. David Lamir
Regional Inspector General for Audit Services
Office of Audit Services, Region 1
JFK Federal Building
15 New Sudbury Street, Room 2425
Boston, MA 02203

RE: Audit Report A-01-13-00501, Medicare Compliance Review of Good Samaritan Medical Center for
Calendar Years 2010 and 2011

Dear Mr. Lamir:

Good Samaritan Medical Center, a Steward Family Hospital, Inc. (“Good Samaritan” or the “Hospital”)
has reviewed the November 20, 2013 Draft Report (the “Report”) provided by the Department of Health
and Human Services (DHHS), Office of the Inspector General (OIG) entitled “Medicare Compliance
Review of Good Samaritan Medical Center for Calendar Years 2010 and 2011.” 1 We are appreciative of
the opportunity to respond to your Report in writing.

The Hospital understands the OIG’s designated responsibility to ensure compliance with these
regulations and is dedicated to strict adherence to all Medicare billing regulations and guidelines. As
outlined in the Report, the claims reviewed were judgmentally selected by the OIG and flagged as
potentially at risk for billing errors based on generally identified risk areas for hospitals.

The following represents a summary of issues identified during the review process, along with highlights
of how the Hospital addressed these issues operationally, to promote ongoing compliance with
Medicare’s billing requirements:

Incorrectly Billed as Inpatient

The audit determined that 103 inpatient claims from the OIG’s judgmentally selected sample should
have instead been billed as outpatient or observation services. Of the 103 claims, the Hospital agrees
that 92 may not meet certain standards of review, including the OIG’s current assessment methods, and
is in the process of re-billing those 92 claims for appropriate payment, as noted in the Report. The
Hospital respectfully disagrees with the Medical Review Findings for the remaining 11 claims, and will
appeal these claims following Medicare procedures.


1
 Many of the claims subject to the Report were filed prior to the acquisition of the Hospital on November 6, 2010. The current
operator, Good Samaritan Medical Center, a Steward Family Hospital, Inc., is a new entity that did not assume the liabilities of
the prior owner with respect to the participation in the Medicare program or violations of law. Nothing herein should be
deemed as a waiver of any rights of this Hospital to reject such liabilities of the prior owner.

Good Samaritan Medical Center
235 North Pearl Street, Brockton, Massachusetts 02301 Tel: 508- 427-3000 www.steward.org
Medicare Compliance Review of Good Samaritan Medical Center (A-01-13-00501)                                                  12
The Hospital has enhanced its Utilization Review Policy and has worked to increase care management
staffing levels to make the most accurate level of care determinations in a more timely manner. Good
Samaritan is also working with its medical staff and employees, through its hospital committees, to
ensure that efforts to better educate and communicate leads to more accurate admission decisions.

Incorrectly Billed as Separate Inpatient Stays

The Hospital has an enhanced policy that describes revenue cycle procedures to identify all inpatients
readmitted to the Hospital within 24 hours and assign those claims for clinical review prior to claim
submission. Care coordination staff completes the clinical review to determine if the inpatient
admissions are related. If they are related, the appropriate combining of claims is completed by the
Patient Financial Services staff. The applicable staff has been trained on these enhanced procedures.

Incorrect Discharge Status

For the five (5) claims identified in the audit, it was determined that the Hospital’s coding staff did not
appropriately validate the patients’ discharge disposition code at the time of the discharge. The
Hospital’s Health Information Management (HIM) leadership has provided additional in-person
education to the coding staff regarding the proper review and validation of patient discharge disposition
coding.

Incorrectly Billed Diagnosis-Related Group Code

The staff members who coded the three (3) incorrectly coded claims were provided with remedial
education. All coding staff received education on the issues related to the incorrectly coded claims.

Incorrect Source-of-Admission Code

The Hospital implemented a procedure that requires the Patient Access staff to review a report which
identifies all patients discharged from the Hospital’s acute care bed and admitted to the Hospital’s
Inpatient Psychiatric Facility (IPF) bed in order to verify that the claim was properly coded with source of
admission D. Patient Access staff and coders have been educated on the report and verification process,
and monitoring is in place.

Incorrect Billing for Dental Services

Dental procedures at the Hospital are generally performed only in emergency circumstances. The dental
claims that were subject to this audit were determined to have been elective procedures where the
patient required full anesthesia, and no coding validation occurred. The Hospital has expanded its billing
edit software to identify any dental procedures that are performed in the Hospital, and has provided its
coders with education to ensure that covered dental procedures are properly charged, including correct
modifier selection as appropriate.

Manufacturer Credit for a Replaced Medical Device Not Reported

As noted in the Report, one (1) claim was found in error. The Hospital has implemented a procedure to
capture and report claims related to medical devices. Determination of explanted device warranty
status occurs via direct communication with the device manufacturer, and claims are adjusted

                                              GSMC – Page 2



Medicare Compliance Review of Good Samaritan Medical Center (A-01-13-00501)                              13
accordingly. The procedure enhances the communication of any received credit between the Hospital
departments notified of the credit and Patient Financial Services to ensure that the claim is resubmitted
with the appropriate credit modifier.

Incorrectly Billed Outpatient Services Provided During an Inpatient Stay

The Hospital has implemented a revised policy that enables it to meet regulatory requirements with
respect to outpatient services provided within 72 hours of an inpatient admission. As part of this policy,
billing software and process flow improvements have led to better identification of claims that may
require review and adjustment prior to claim submission. Daily worklists of outpatient claims that fall
within the 3 day window of an inpatient admission are routed to Health Information Management
personnel for relatedness review, and claims that require bundling are then routed to Patient Financial
Services personnel who combine the services and submit the final claim.

Incorrectly Billed Number of Units

For the one (1) claim found to be in error, the Hospital re-educated all Pharmacy staff on the type of
error identified in this claim.

Incorrectly Billed Services with Modifier -59

For the two (2) claims found in error, the Hospital provided additional education to coding staff related
to their identification of procedures or services that are separate and/or distinct from other services
performed on the same day. Good Samaritan has verified that its billing software identifies any
potentially inappropriate use of the modifier, and that the coding department’s lead coder reviews the
errors and any trends with the clinical department coding team that coded the original claim to ensure
proper modifier use.

Nothing herein should be deemed an admission by the Hospital of any regulatory violations, and the
Hospital reserves the right to appeal any and all claims denied by the Medicare Administrative
Contractors.

Good Samaritan Medical Center takes its obligations to comply with all laws and regulations seriously
and appreciates the opportunity to provide this response to the Report. The Hospital extends its thanks
to the OIG audit team for their politeness and open communication during the review process.

The remediation efforts outlined in this letter have been set up to promote continued compliance with
Medicare regulations associated with patient care billing. The Hospital is committed to ensuring follow
through and maintenance of these efforts.

Please feel free to contact me if you have questions or require additional information.


Sincerely,

Jeffrey H. Liebman

Jeffrey H. Liebman
President
                                                GSMC – Page 3



Medicare Compliance Review of Good Samaritan Medical Center (A-01-13-00501)                              14
